                        AUDIT OF AN EARLY DEFAULTED LOAN TO .

                                        [                            J
                                      AUDIT REPORT NO. 1-10 


                                             March 9, 2001 





This finding in this report is the conclusion of the O]G's Auditing Division based on testing of the auditee's
operations. The finding and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of]8 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.


                                                                                                   t'bll\ EX   t
                           u.s. SMALL BUSINESS ADMINISTRATION
                               OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20416



                                                                         AUDIT REPORT
                                                                   ISSUE DATE: MARCH 09, 2001
                                                                   REPORT NUMBER: 1-10

To:            Alberto G. Alvarado, District Director
                Los Angeles District Office



From:          lki.#t!I:::_tm_o-u
                For Auditing

Subject:       Audit of an Early Defaulted Loan to   r   ~1<·4


        Attached is a copy of the subject audit report. The report contains two findings and two
recommendations addressed to your office. Your comments have been synopsized and included
in the report. Your comments indicate that you agree with the audit results and
recommendations.

        We have referred this matter to our Office ofInvestigations for appropriate follow-up.
Since this report may contain proprietary information subject to the provisions of 18 USC 1905
and might comprise possible investigative work, the contents must not be released to the public
or another agency without permission of the Office ofInspector General.

        The recommendations are subject to review and implementation of corrective action by
our office in accordance with the existing Agency procedures for follow-up. Please provide your
management responses to the recommendation by April 10, 2001, using the attached SBA Forms
1824, Recommendation and Action Sheet. Any question or discussions of the issues contained
in the report should be directed to Garry Duncan at 202-205-7732

Attachments
                                                      AUDIT OF 

                                              EARLY DEFAULTED LOAN TO 

                                                  MVP SPORTS CAFE 




                                                      TABLE OF CONTENTS




Background. ................... ...................................................... ..... .................. ........   1


Audit Scope and Objective.................................................................................                 1


Results of Audit .............................................................................. ...... ....... ........    1


Findings and Recommendations 


1.         The Lender did not Follow SBA Lending Procedures ..................... .                                        2


2.         The Borrow Circumvented Loan Disbursement Procedures .............. .                                           4


APPENDICES 

A.     Checks Submitted by the Borrower in Support of Equity Injections
B.     Management Response
C.     Audit Report Distribution
                                                BACKGROUND

            The Small Business Administration (SBA) is authorized under Section 7(a) of the Small
    Business Act to provide financial assistance to small businesses in the form of government
    guaranteed loans. SBA guaranteed loans are made by participating lenders under an agreement
    (SBA Form 750) to originate, service, and liquidate loans in accordance with SBA rules and
    regulations.

               The Money Store Investment Corporation (lender) approved 10anC e'l· 4-               1to
     r:: j7,J(. 4      1 (borrower) under the Preferred Lenders Program (PLP) on [ EX· 4             J
      The purpose of the loan was to establish a [      E')£ . '+            J California. The loan
     proceeds were to be used for leasehold improvements, working capital, equipment, furniture,
      fixtures and supplies. The loan was originally approved for [ aI.. 4 ]but was twice increased.
     The first increase to ( ~. q. J was due to a relocation of the business and the second increase to
    [ E)l.. t+ J was to cover construction overruns.


                The PLP loan carried a 75 percent SBA guarantee. The first disbursement occurred on
(          E'I. . 4-      J with the last disbursement in ( !OJ{. <\  1 The borrower defaulted on the loan
    in (       E'l<. 4      ) 9 months after the first disbursement. SBA purchased the guarantee for
    [             fl<.. 4          J
                                      AUDIT SCOPE AND OBJECTIVE

            The loan was judgmentally selected for review as part of the Office ofInspector
    General's ongoing program to audit SBA guaranteed loans that defaulted within 36 months of
    origination.

           The audit objective was to determine if the reason the borrower defaulted early on the
    loan was due to lender or borrower non-compliance with SBA requirements. During the audit,
    we reviewed the SBA and lender loan files, and the borrower's records. We also interviewed
    contractor, vendor, district office, and lender personnel. Fieldwork was accomplished from June
    1999 through February 2000. The audit was performed in accordance with generally accepted
    Government Auditing Standards.

                                         RESULTS OF THE AUDIT

           The audit showed that the lender contributed to the early default of the loan by not
    properly ensuring that over ( fX· 4 Jof equity was injected as required. The borrower also
    contributed to the loan default by providing misleading information regarding equity injection
    and misusing loan proceeds.




                                                                                        1'olA t")( .   4­
FINDING 1- The Lender did not Follow SBA Lending Procedures

         The lender did not comply with the equity injection provision of the Authorization and
Loan Agreement nor adhere to lender established procedures for monitoring collateral. As a
result, the lender's evidence that the borrower injected [ £0)(·4 ] into the business was
questionable and about two thirds ofthe value of the collateral was missing when the loan was
liquidated. The borrower defaulted on the loan 9 months after the first disbursement of loan
proceeds causing SBA to purchase the guarantee for ( EX. 4 1

Equity Injection

         The lender did not take adequate measures to ensure that the borrower injected the
appropriate amount of equity into the business. The Authorization and Loan Agreement required
the lender to obtain evidence that the borrower injected [ ",c. 4 ] into the business prior to the
first loan disbursement. The lender, however, accepted questionable and poor quality
documentation as evidence of the borrower's equity injection, some of which was obtained after
the loan. was disbursed. As a result, the lender did not properly ensure that [ f;<.. 4 ) 1 was
injected into and available for use by the business.

In support of the equity injection, the lender accepted photocopies of the front sides of twenty
checks totaling [ fo")!· 4 ] which represented prior payments for equipment and leasehold
improvements. The photocopied checks were reduced in size and stamped as "poor original" by
the lender. Moreover, a review of the issuing bank's records showed that the dates and amounts
on the photocopied checks were altered. Several photocopied checks were dated after the bank
processed the original checks, written to different payees, and the amounts were much greater
than the amounts shown in the bank re.cords. For example:

         • 	 A copy of check number ( L! ] submitted in the amount of [ Ex. '1 J appeared in the
             borrower's bank statement for only [ '-x. 4 J
         • 	 A copy ofcheck number t '+ J submitted in the amount of[ Ef. 'f 1 appeared in the
             borrower's bank statement for only [lx·~ land was dated 8 days after the bank
             processed the actual check.
         • 	 Check number [ 4: 1 was submitted twice as proof of equity in the amounts (If"~. '1 )
             and (~pj. ) but was issued in the amount of [ Ell. ... J

         The .lender could have detected these misleading modifications if legible copies of both
sides of the original checks were obtained and reviewed. The twenty photocopied checks
submitted in the amount of (~}(. 4 Jwere actually issued for [ ~. If. J (See Appendix A for a
list of the 20 checks submitted in support of equity injection.)

        The audit also disclosed photocopies of 4 equity injection checks totaling ( (;")!. <I- 1 which
were dated after the first disbursement in violation of the loan agreement. Three of the checks
totaling [ ~.~ .l are not part of the twenty checks mentioned above. All 4 checks were drawn on

I The equity injection of ( E}( .... 1comprised [    E)t. '+   ] which are discussed above and ( eio· '1   J of
collateral which is discussed in the next section.


                                                          2
                                                                                              ~o IA t=')(.   4­
 the bank account of the borrowing business, making it impossible to distinguish the source and
 nature of the checks without additional documentation, which was not found in the lender's loan
 files.

 Collateral

        The loan was to be secured by equipment valued at t~x.4 J at the time the loan was
approved. The collateral supposedly included equipment provided by the borrower as part of the
equity injection (66%) and equipment that was purchased with SBA loan proceeds (34%).
According to the lender, its general policy is to monitor collateral by reviewing invoices and
using a construction consultant to take pictures of the collateral to verify that it exists and is used
by the business. The construction consultant hired by the lender for this loan, however, stated
that he was hired only to monitor the progress made in leasehold improvements, not to monitor
the collateral securing the loan.

        The lender's loan file did not contain evidence, in the form of pictures or otherwise, that
collateral was adequately monitored. For example, as proof of collateral purchased with
borrower equity prior to loan disbursement, the borrower gave the lender two paid invoices for
equipment purportedly purchased with a cashier's check for [ €J<.4- J The invoices, however,
were dated almost two years prior to the date on the cashier's check. Further, the vendor for the
equipment that was actually purchased with the cashier's check provided us with thirteen
invoices totaling ( b)(' '( Jthat were different from the two found in the lender's files. According
to the vendor, the borrower picked out the equipment he wanted during a nine-month period after
the loan was disbursed and was given a check for the [ Ex A 1 balance remaining on the cashier's
check.

           In another example, the borrower provided documentation to the lender to support over
r ~". <+   J of equipment reportedly purchased from an affiliated company. Bank records showed
that a t E~. <I J check disbursed by the lender to an affiliate of the Borrower for the purchase of
equipment was deposited into the borrower's bank account rather than the affiliate's account.
This indicates that the check may not have been used to purchase equipment as reported to the
lender and there was no evidence in the lender's loan files that the equipment existed or was used
in the business. The remaining CE-)(. '\ J of equipment was allegedly purchased with cash.

         We found that at least 42 percent of the line items of equipment intended to secure the
loan was missing at the time the loan was liquidated. An exact number and value of the missing
items could not be determined because general descriptions of the collateral contained in the loan
files did not clearly distinguish it from other property and the serial numbers of the equipment
taken as collateral were not recorded. Consequently, the lender records did not show how much
of the [ ")('.4 Jof equipment actually existed or was used in the business.

        At liquidation, the available collateral sold for [6~. oj. ] According to SBA's SOP for
loan liquidations, recovery on collateral in a forced sale is assumed to be 50% of its book value.
Using this formula, the liquidated collateral had a book value of ( 6(. t\ J and the missing
collateral's book value was C         E:i< • 4                    -3




                                                  3
..
       Recommendation

       We recommend that the Los Angeles District Office take the following actions:

       lAo 	   Recover [ fix A   J less any prior recoveries, from the lender for loan number
               [t;)<.4     J

       IB. 	   Remind the lender, in writing, of its obligation to comply with SBA regulations, policies,
               and procedures for originating, servicing, and liquidating SBA guaranteed loans.

       Management Response

                 The Los Angeles District Office agreed with the findings and recommendations. The
       District Office plans to send the lender a letter demanding the remittance to SBA of the
       C. €)(. " J less any prior recoveries. The DistriCt Office will also remind the lender of its
       obligations to comply with SBA regulations, policies, and procedures for originating, servicing,
       and liquidating SBA guaranteed loans.

       Evaluation of Management Response

               The district office comments and actions are responsive to the recommendations.

       FINDING 2 - The Borrower Circumvented Loan Disbursement Procedures

              The Borrower obtained [ E-)(.4 J in loan proceeds intended for the general contractor, a
       subcontractor, and an affiliated company by circumventing loan disbursement procedures
       designed to prevent the misuse of proceeds.

              'In accordance with the terms of the settlement sheet .(SBA form 1050), loan proceeds
       were disbursed by issuing joint payee checks in the name of the contractor and the borrower. At
       the borrower's request, however, the general contractor endorsed r £'J. .4 J in disbursement
       checks for deposit into the borrower's bank account. Also deposited into the borrower's bank
       account were lE;t. L1 ] in loan proceeds disbursed to an affiliated company for the purchase of
       equipment (see discussion in previous section).

                To induce the lender to disburse the proceeds, the borrower, on several occasions,
       submitted false documentation as proof of payments to the contractors. In one instance, the
       borrower submitted ten unconditional lien waivers representing [ EX· LI J in payments to the
       general contractor for leasehold improvements, but the general contractor's records showed that
       only [ fx. 4 J was received from the borrower. In another instance, the borrower submitted
       eight unconditional waivers totaling [ e~."] in payments to a subcontractor who received only
       ("",.'1 J from the borrower.

               We were unable to determine what the borrower did with the (    (1<.4 ]   due to the limited
       records that were available for review.




                                                       4	                                     fi:>lA   ey.. 4

-, 

                                                                                                                                 Appendix A
                                  Checks Submitted by the Borrower in Support of Equity Injections




             1	
             2
             3
                     No.


                    I	
                      A               b
                                                        Date
                                                         c         d

                                                                       I          ,No. 	
                                                                                     e               f
                                                                                                                     Date
                                                                                                                       9                  h


                                                                                                                                              l
             4
             5
             6	
                                    l-otA
                                                                                                   FO,A
             7	
             8
             e                            6)(   .Ll-	                                                 E~.+
             10
             11
             12
             13
             14
             15
             16
             17




                  Note: 

                  A comparison of the data submitted in the tables above shows that the checks in Table 1do not reconcile to those in 

                  Table 2. The data in Table I was submitted by the borrower along with invoices as evidence of equity injections. 

                  The data in Table 2 is taken from the borrower's bank statements and based on the same bank account number as 

                  the checks in Table 1. 


                  Other Irregularities: 

                     • 	 Check numbe,e LI Jwas submitted twice in different amounts (Table 1).
                     • 	 Nine checks ( [               E)l. ""                              J) in Table 1 have the same reference
                                number as the same check in Table 2, but different amounts. A bank representative stated that
                                   reference numbers are unique to each check.
                     • 	 Three checks in Table 1 have the same reference number as different checks in Table 2:
                           I. 	 Check numberC <l 1 in Table I has the same reference number as check number t 'I ) in Table 2
                          2. 	 Check number( "\ 1 in Table I has the same reference number as check number ( 4 lin Table 2
                          3. Check number ( 4 lin Table I has the same reference number as check number ( ~ J in Table 2
                          As stated previously, reference numbers should be unique to each check.
                     • 	 Check number(41 was written after the disbursement date of ( f"l<. 'I-       .J making this a violation of
                          the equity injection requirement of the loan authorization.
                     • 	 The dates on nine of the photocopied checks (C                 E)l. 4                               .J,)
                          were dated after the bank proce~sed the original checks.




,..,......
                U. S. SMALL BUSINESS ADMINISTRATION
                      LOS ANGELES DISTRICT OFFICE 
          APP~DdlxB
                             33ON. BRAND 

                       GLENDALE. CAUFORNIA 91203 





February 22, 2001



Robert G. Seabrooks
Assistant Inspector General For Auditing
Office of the Inspector General
United States Small Business Administration
409 3~ Street, S.W.
Washington, D. C. 20416

RE:   Audit of Early Defaulted Loan to           L    ~x·4

Dear Mr. Seabrooks:

     Thank you for your letter of January 31, 2001 and the
Report attached thereto.   In response to the information
contained therein, meetings have been held involving our
District Director, the Acting Deputy District Director, the
Assistant Dis'trict Director for Economic Development, the
District Counsel, and the Chiefs of both the Finance
Division and the Liquidation Division of the Los Angeles
District Office (LADO). Based upon the information
provided by you and our review of our "limited" loan file,
we concur in your recommendations and we will take
appropriate action to comply therewith.

        Our review of the loan file, the Equity Injection
  issues, the Loan Increase issues, the collateral issues,
  the 327 (Modification or Administrative Action) related to
  the Purchase Examination, Counsel's comments related
  thereto, and the information provided by you in your Draft
  Report, underscores that SBA should take action to recover
(    ex. 4    J from the· Lender, less any prior recoveries.
 After review of your Report and after our Post Purchase
 Review, we fully agree that recovery by this 'Agency of the
[tx. 4      1 is quite appropriate under the circumstances.

     Like you, we believe that the Lender did not follow
prudent SBA lending procedures, the Lender did not take
adequate measures to ensure the Borrower's equity
injection, the Lender failed to appropriately review checks
submitted by the Borrower in support of the Borrower's
expenditures, and the Lender failed to monitor the
collateral which was to secure this loan. Recovery of the
purchase amount is quite appropriate in this case.

     In that regard, we are preparing to send First Union
Bank (formerly The Money Store) a letter demanding the
remittance to SBA of the c.. ~l<. 4 ] payment made by SBA in
honoring its Guarantee(less any prior recoveries).   In
accordance with your recommendations we are also sending
First Union Bank a reminder letter concerning its
obligation to comply with SBA regulations pursuant to your
Recommendation number 2 of the Draft Audit that we "Remind
the lender, in writing, of its obligation to comply with
SBA regulations, policies, and procedures for originating,
servicing, and liquidating SBA guaranteed loans."

     While we totally agree that such items should be
brought to the attention of this Lender, we also note that
the loan to [ ~~.~         ~was a PLP loan.  Because the
loan is a PLP loan, our local District Office here in Los
Angeles never saw the file in advance of the loan approval.
Nor are PLP loan files reviewed during the servicing stage
with regard to compliance with loan disbursements, loan
liquidation, and adherence to collateral requirements.
Therefore, it may also be a good idea (and you may want to
make it a part of your recommendations) for the PLP Center
to remind this and other lenders in writing of their
obligations.




                                                       FOIA   Ex.4
·   .

             I look forward to hearing from you with regard to our
        proposed actions. Your Auditors obviously have access to
        more information than we do at this time and that
        information may be needed by us should this Lender decide
        cO conceet our demond for   rep.yme~nk      ,yoU



                                           Terry R. Gibson
                                           District Counsel

        Cc: 	 AA/Office of Financial Assistance
               AA/Office of Field Operations
               Alberto G. Alvarado, DO, LADO
               John L. Brown, Acting ODD, LADO
               Lorenzo J. Flores, ADDlED, LADO
               Rick Kresser, Chief of Finance, LADO
               Monte Hogan, Chief of Liquidation, LADO
              c e l l . ,'"   1 Loan Specialist, Liquidation Division
              ('     E~. '"    J Attorney
                                                                                              AppendixC

                                  AUDIT REPORT DISTRIBUTION

Recipient                                                                             Number of Copies

District Director, Los Angeles District Office---------------------------------------------        2

Deputy Associate Administrator for Capital Access -------------------------------------            1

Center Director, Sacramento Loan Processing Center -----------------------------------             1

General Counsel -------------------------------------------------------------------------------    1

Associate Administrator for Financial Assistance ----------------------------------------          1

Associate Administrator for Field Operations ---------------------------------------------         1

Office of the Chief Financial Officer -------------------------------------------------------      1

General Accounting Office------------------------------------------------------------------        1
